  Office of Inspector General

Semiannual Report to Congress





October 1, 2004 – March 31, 2005



 Federal Election Commission

 999 E Street, N.W., Suite 940

    Washington, DC 20463



           May 2005

                              TABLE OF CONTENTS





EXECUTIVE SUMMARY ------------------------------------------------------- 1

FEDERAL ELECTION COMMISSION                     -------------------------------------- 7

AUDITS------------------------------------------------------------------------------10

HOTLINE COMPLAINTS ------------------------------------------------------- 18

INVESTIGATIONS ----------------------------------------------------------------19

ADDITIONAL OFFICE OF INSPECTOR GENERAL
ACTIVITY ------------------------------------------------------------------------- 20

ECIE AND PCIE ACTIVITY                  ---------------------------------------------- 25

REPORTING REQUIREMENTS ---------------------------------------------- 27

TABLE I - QUESTIONED COSTS                      -------------------------------------   28

TABLE II - FUNDS PUT TO BETTER USE                       ----------------------------   29

TABLE III - SUMMARY OF AUDIT REPORTS WITH
             CORRECTIVE ACTIONS OUTSTANDING
             FOR MORE THAN SIX MONTHS     -------------------                           30

CONTACTING THE OFFICE OF INSPECTOR
GENERAL -------------------------------------------------------------------             31




Semiannual Report to Congress – October 1, 2004 – March 31, 2005
                             EXECUTIVE SUMMARY




        On behalf of the Federal Election Commission (FEC), Office of Inspector

General (OIG), this Semiannual Report to Congress is submitted in accordance

with the requirements of the Inspector General Act of 1978, as amended. The

major activities and accomplishments of the FEC OIG are summarized in

this Executive Summary. This report covers the period of October 1, 2004

through March 31, 2005.



        The Office of Inspector General is responsible for conducting,

supervising, and coordinating audits, investigations, and inspections. Our

emphasis on improving communication with management and focusing our

work on important issues remains vital – we are committed to protecting the

Commission against fraud, waste, abuse, and mismanagement.



        The OIG follows the standards contained in the Quality Standards for

Federal Offices of Inspector General, published by the President’s Council on

Integrity and Efficiency (PCIE) and the Executive Council on Integrity and

Efficiency (ECIE). The audits are conducted in accordance with the

Government Auditing Standards, issued by the Government Accountability

Office (GAO). Our investigations comply with the Quality Standards for

Investigations, which has been developed by the PCIE and ECIE.

Semiannual Report to Congress – October 1, 2004 – March 31, 2005            Page 1
        In an effort to improve financial management, and under the

requirements of The Accountability of Tax Dollars Act of 2002, financial

statements must be audited annually by the agency’s Office of Inspector

General. To comply with the requirements outlined in the Act, the FEC OIG,

in conjunction with independent contract auditors - Clifton Gunderson (CG)

LLP, completed the first audit of the FEC’s 2004 financial statements.



        Throughout the course of the audit, the OIG coordinated and

participated in weekly audit status meetings with management and the

auditors. In addition, the OIG reviewed the notices of findings and

recommendations (NFRs) prepared by the contract auditors. The NFRs are

written communication from the auditors to management that provide details

on preliminary weaknesses found, and allows management the opportunity to

respond to those issues. The OIG also prepared the Inspector General

Statement on the Federal Election Commission’s Management and

Performance Challenges, a document that was included in the FEC’s

Performance and Accountability Report (PAR).



        The results of the audit were detailed in three reports: 1) report on

compliance with laws and regulations; 2) report on internal control; and 3)

the opinion on the financial statements. The FEC received an unqualified



Semiannual Report to Congress – October 1, 2004 – March 31, 2005           Page 2
opinion on the financial statements. The auditor’s report on internal controls

contained both reportable conditions and material weaknesses - a total of 42

audit recommendations were included in the report that must be addressed

by management. The OIG commends the FEC for the noteworthy

accomplishment of receiving an unqualified opinion but recognizes that a

tremendous amount of effort by FEC management, staff, and consultants was

necessary to achieve the unqualified opinion. The OIG and the auditors

intend to work with management throughout the follow-up audit process to

ensure the weaknesses and audit recommendations are addressed

satisfactorily.



        The final audit report was completed and released December, 2004.

For additional information regarding the Audit of the FEC’s Fiscal Year 2004

Financial Statements - OIG-04-01, see the Audit section of this report, which

starts on page 10.



        Audit work continued on the Audit of the FEC’s Public Disclosure

Process – OIG – 02-03. The primary objectives of this audit are 1) to

determine the extent, if any, of disclosure differences between candidate

contributions reported by political committees and related political committee

contributions reported received by candidates; and 2) to determine whether

an adequate process is in place to remedy any reporting discrepancies.



Semiannual Report to Congress – October 1, 2004 – March 31, 2005            Page 3
        To accomplish these objectives, the OIG assessed current election cycle

data for randomly selected samples to determine whether candidates

continued to have reporting variances in more current cycles. The OIG

retrieved and sampled campaign summary report data captured in the

agency’s database for election cycles 2001/02 and 2003/04. The OIG also

compared the political action committees’ (PAC) reported disbursements to

candidate reported receipts for each election cycle.



        Various tables of summary campaign data for Senate and House

candidates were examined. This review will assess reporting variances

between PAC disbursements and candidate committee receipts in more

current election cycles. For additional details as it pertains to the Audit of

the FEC’s Public Disclosure Process, see page 15.



        An additional responsibility of the Office of Inspector General is to

receive and investigate complaints from Commission employees, the public,

and other sources concerning possible violations of laws, rules or regulations,

mismanagement, waste of funds, and abuse of authority. Individuals may

disclose information or make complaints to the OIG through various channels

(see page 31). The OIG protects the legal rights of complainants and does not

disclose their identity without prior consent.



Semiannual Report to Congress – October 1, 2004 – March 31, 2005            Page 4
        During this reporting period, the OIG received a number of allegations.

Significant investigative work has been conducted on these issues. Two

hotline complaints were closed by the OIG – one was incorporated into the

annual work plan and the other was referred to another Federal agency. For

more details, see the section entitled Hotline Complaints starting on page 18.



        In addition to conducting audits, investigations, and reviews, the OIG

engages in a variety of additional assignments. The following items highlight

the other activities of the OIG and are described in greater detail in the

section entitled Additional Office of Inspector General Activity beginning on

page 20.



            •	 A peer review of the Federal Election Commission, OIG was

                conducted by the Appalachian Regional Commission (ARC),

                Office of Inspector General. The objectives of the peer review

                program is to foster quality audits by the OIG through an

                independent assessment of the effectiveness of the internal

                control system in providing reasonable assurance that

                applicable audit standards and requirements are being followed.

                An unqualified opinion was issued on the OIG’s system of audit




Semiannual Report to Congress – October 1, 2004 – March 31, 2005	             Page 5
                quality control – the OIG was found to be in compliance with the

                quality standards established by the PCIE (see page 20).



            •	 As stated in the previous semiannual report, the OIG

                commenced a peer review of the Federal Housing Finance Board

                (FHFB), Office of Inspector General. The peer review was

                completed during this reporting period and the report was

                forwarded to the FHFB Inspector General (see page 21).




Semiannual Report to Congress – October 1, 2004 – March 31, 2005	           Page 6
                THE FEDERAL ELECTION COMMISSION




        In 1975, Congress created the Federal Election Commission (FEC) to

administer and enforce the Federal Election Campaign Act (FECA). The

duties of the FEC, an independent regulatory agency, is to disclose campaign

finance information; enforce the provisions of the law such as the limits and

prohibitions on contributions; and oversee the public funding of Presidential

elections.


        The Commission is made up of six members, who are appointed by the

President and confirmed by the Senate. Each member serves a six-year term,

and two seats are subject to appointment every two years. By law, no more

than three Commissioners can be members of the same political party, and at

least four votes are required for any official Commission action. The

Chairmanship of the Commission rotates among the members each year,

with no member serving as Chairman more than once during his or her term.




                     OFFICE OF INSPECTOR GENERAL




        The Inspector General Act of 1978 (P.L. 100-504), as amended in 1988,

states that the Inspector General is responsible for: 1) conducting and

Semiannual Report to Congress – October 1, 2004 – March 31, 2005          Page 7
supervising audits and investigations relating to the Federal Election

Commission’s programs and operations; 2) detecting and preventing fraud,

waste, and abuse of agency programs and operations while providing

leadership and coordination; 3) recommending policies designed to promote

economy, efficiency, and effectiveness of the establishment; and 4) keeping

the Commissioners and Congress fully and currently informed about

problems and deficiencies in FEC agency programs and operations, and the

need for corrective action.



        The mission of the OIG is to be an independent, objective voice that

aids the Commission by promoting positive change, accountability and

integrity. An inventory of suggested audits and investigations that we

receive from a variety of sources is maintained. The most important

challenges on which to focus our work are identified and the final step is to

plan and conduct audits and investigations that address those challenges.



        The OIG follows the standards contained in the Quality Standards for

Federal Offices of Inspector General, published by the President’s Council on

Integrity and Efficiency (PCIE) and the Executive Council on Integrity and

Efficiency (ECIE), and GAO’s Yellow Book. Our investigations comply with

the Quality Standards for Investigations, which has been developed by the

PCIE and ECIE.



Semiannual Report to Congress – October 1, 2004 – March 31, 2005          Page 8
        The Office of Inspector General staff, including the Inspector General,

consists of four (4) full time employees; two auditors, and one special

assistant to the Inspector General.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005           Page 9
                                          AUDITS




TITLE:                          Audit of the FEC’s Fiscal Year 2004 Financial
                                Statements

ASSIGNMENT #:                   OIG – 04-01

RELEASE DATE:                   December, 2004

WEBSITE ADDRESS:                http://www.fec.gov/fecig/financial04.pdf

PURPOSE:                        In an effort to improve financial management, and

under the requirements of The Accountability of Tax Dollars Act of 2002,

financial statements must be audited annually by the agency’s Office of

Inspector General. To comply with the requirements outlined in the Act, the

FEC OIG, in conjunction with independent contract auditors - Clifton

Gunderson (CG) LLP, completed the first audit of the FEC’s 2004 Financial

Statements.



        Throughout the course of the audit, the OIG coordinated and

participated in weekly audit status meetings with management and the

auditors. In addition, the OIG reviewed the notices of findings and

recommendations (NFRs) prepared by the independent contract auditors.

The NFRs are written communication from the auditors to management

which provides details on preliminary weaknesses found, and allows


Semiannual Report to Congress – October 1, 2004 – March 31, 2005            Page 10
management the opportunity to respond to those issues. The OIG also

prepared the Inspector General Statement on the Federal Election

Commission’s Management and Performance Challenges, a document that

was included in the FEC’s Performance and Accountability Report (PAR).



        In connection with the OIG’s contract with CG-LLP, the OIG reviewed

CG-LLP’s reports and related documentation and inquired of its

representatives. Specifically, we performed the following: 1) reviewed CG­

LLP’s approach and planning of the audit; 2) evaluated the qualifications and

independence of the auditors; 3) monitored the work of the auditors

throughout the audit; 4) examined audit documents and audit reports to

ensure compliance with Government Auditing Standards and OMB Bulletin

No. 01-02; and 5) performed other procedures we deemed necessary.



        The auditors audited the balance sheet of the FEC as of September 30,

2004, and the related statements of net cost, changes in net posting

budgetary resources, financing and custodial activity for the year then ended.

The audit included an examination, on a test basis, of evidence supporting

the amounts and disclosures in the financial statements. The audit also

included assessing the accounting principles used and significant estimates

made by management, as well as evaluating the overall principal statements’

presentation. The results of the audit were detailed in three reports: 1)



Semiannual Report to Congress – October 1, 2004 – March 31, 2005        Page 11
report on compliance with laws and regulations; 2) report on internal control;

and 3) the opinion on the financial statements.



        FEC management is responsible for complying with laws and

regulations applicable to the agency. To obtain reasonable assurance about

whether FEC’s financial statements are free of material misstatement, the

auditors performed tests of compliance with certain provisions of laws and

regulations, non-compliance with which could have a direct and material

effect on the determination of financial statement amounts, and certain laws

and regulations specified in OMB Bulletin No. 01-02, such as the Anti-

Deficiency Act and the Prompt Payment Act. The results of the tests of

compliance with laws and disclosed no instances of non-compliance.



        The auditors obtained an understanding of the FEC’s internal control;

determined whether internal controls had been placed in operation; assessed

control risk; and performed tests of controls in order to determine auditing

procedures for the purpose of expressing an opinion on the financial

statements. The auditors limited their internal control testing to those

controls necessary to achieve the objectives described in OMB Bulletin No.

01-02 and consequently the auditors did not provide an opinion on internal

controls.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005           Page 12
        Internal control as it relates to the financial statements, is a process

designed to provide reasonable assurance of the following: 1) transactions

are properly recorded, processed, and summarized to permit preparation of

the financial statements and assets are safeguarded against loss from

unauthorized acquisition, use or disposition; 2) transactions are executed in

accordance with laws governing the use of budget authority and other laws

and regulations that could have a direct and material effect on the financial

statements and other laws and regulations identified by OMB; and 3)

transactions and other data that support reported performance measures are

properly recorded, processed, and summarized to permit the preparation of

performance information in accordance with criteria stated by management.



        The auditors issued an unqualified opinion on the FEC’s financial

statements. The auditor’s report on internal controls contained both

reportable conditions and material weaknesses - a total of 42 audit

recommendations were included in the report that must be addressed by

management.



        The final audit report was completed and released December, 2004.

An electronic version of the report was also created and forwarded to the

FEC’s Webmaster for posting on the OIG’s home page - the OIG and the

auditors intend to work with management throughout the follow-up audit



Semiannual Report to Congress – October 1, 2004 – March 31, 2005            Page 13
process to ensure the weaknesses and audit recommendations are addressed

satisfactorily.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005   Page 14

AUDITS





TITLE:                          Audit of the FEC’s Public Disclosure Process

ASSIGNMENT #:                   OIG – 02-03

RELEASE DATE:                   In Progress

PURPOSE:                        This audit has two primary objectives 1) to

determine the extent, if any, of disclosure differences between candidate

contributions reported by political committees and related committee

contributions reported received by candidates; and 2) to determine whether

an adequate process is in place to remedy any reporting discrepancies.



        To accomplish these objectives, the OIG assessed current election cycle

data for randomly selected samples to determine whether candidates

continued to have reporting variances in more current cycles. The OIG

retrieved and sampled campaign summary report data captured in the

agency’s database for election cycles 2001/02 and 2003/04. The OIG also

compared the political action committees’ (PAC) reported disbursements to

candidate reported receipts for each election cycle. To initiate the random

selection and review of additional disclosure data, various tables of summary

campaign data for Senate and House candidates were examined.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005               Page 15
        The Commission’s website was examined to determine whether or not

the agency provides adequate instructions to patrons utilizing the electronic

disclosure system. Adequate instructions will allow patrons to effectively and

efficiently use the resources made available on the website. The purpose of

this examination was to ensure that the inexperienced customer knows that

the database reflects a complicated flow of campaign money.



        The Reports Analysis Division’s Review and Referral Procedures, as

well as various training materials, were analyzed to determine whether

policies are in place that include reconciliation of campaign data between

reporting entities. The OIG also assessed the Reports Analysis Division’s

Policies & Procedures Operating Manual to determine which types of

campaign reporting issues are given high priority or consideration during the

review and referral process. Completion of this assessment will give the OIG

a clearer understanding of what aspects of campaign finance reporting are

considered significant to the Commission.



        The auditor contacted the Information Technology (IT) division to

obtain information regarding the final conversion to the new disclosure

database and client server system capabilities as they relate to the

comparison of political committees and candidates. The implementation of

the client server environment is just one of the processes in place to resolve



Semiannual Report to Congress – October 1, 2004 – March 31, 2005          Page 16
campaign data reporting issues. A request was submitted to the IT division

to provide all campaign transactions that met specific criteria. The OIG

reviewed the results of the data query and computed the average number of

checks returned by candidates during the two most recent election cycles. A

select number of those returned checks were then traced back to the PAC

reports to evaluate the effect of the returned checks on the disclosure process.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005          Page 17
                             HOTLINE COMPLAINTS




        The Office of Inspector General observed an increase in the number of

allegations received on our hotline. Hotline complaints can be received many

different ways. Several individuals made contact with the OIG about matters

relating to allegations of fraud, waste, abuse or mismanagement of FEC

programs and/or operations.



        The OIG’s Procedures for Processing Hotline Calls states that a

preliminary inquiry must be conducted on all allegations. If the OIG

determines that a full investigation is necessary, then the hotline complaint

file is closed and a separate investigative file is opened.



        As of this reporting period, the OIG has seven (7) hotline complaints in

various stages. One complaint is currently open; four complaints are

pending; and two complaints are in progress. The OIG closed two hotline

complaints during this reporting period. The subject of one of the complaints

was incorporated into the OIG’s annual work plan. The other complaint was

referred to another OIG. The complainant was informed of this decision and

provided the appropriate contact information.



Semiannual Report to Congress – October 1, 2004 – March 31, 2005          Page 18
                                  INVESTIGATIONS




        As of the end of this reporting period, the OIG has one investigation

open (OIG-04-02). This investigation originated as a hotline complaint

however, after the initial review of the allegation the OIG decided an

investigation was warranted.



        The OIG briefed management on the results of the OIG’s

administrative investigation and issued a written report to management.

The OIG has decided to keep the investigation open pending management’s

60 day notification to the OIG on the status of the issue.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005          Page 19
 ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY




        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and

comments, when appropriate, on all legislation provided by the PCIE/ECIE

Legislative Committee. In addition, the Inspector General routinely reads all

Commission agenda items and attends the Finance Committee meetings.



    •	 The Appalachian Regional Commission (ARC) OIG conducted a peer

        review of the Federal Election Commission OIG. A peer review is

        required to be conducted by an independent office according to the

        Government Auditing Standards. The PCIE/ECIE has a process in

        place that ensures each IG office is reviewed according to the

        standards. The purpose of the review is to ensure that a system of

        quality controls relating to the conduct of audits is in place and being

        followed. The FEC OIG was found to be in compliance with the quality

        standards established by the PCIE and an unqualified opinion was

        issued.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005	          Page 20
    •	 The peer review of the Federal Housing Finance Board (FHFB) OIG,

        commenced prior to the end of the previous reporting period, was

        completed during this reporting period. An opening conference was

        conducted with the FHFB OIG to discuss the objectives and scope of

        the peer review. The FEC OIG examined the FHFB’s Audit Quality

        Assurance Program and completed the appropriate checklist entitled

        Assessment of Internal Quality Assurance Program. FHFB

        professional staff members were interviewed to assess the level of

        understanding and compliance with the quality control policies and

        procedures. The FEC OIG conducted an exit conference with the

        FHFB OIG – the final report was prepared and forwarded to the FHFB

        Inspector General.



    •	 The OIG received a request from the U.S. Senate Committee on

        Health, Education, Labor and Pensions requesting assistance in

        obtaining information relating to agency programs and initiatives to

        combat obesity. The Committee is compiling information on each

        program or initiative – the information requested included the agency

        name, program/initiative title, and office responsible for oversight.

        Management also received this request and had replied that the FEC

        has no programs in place to combat obesity – the OIG concurred with

        that reply.



Semiannual Report to Congress – October 1, 2004 – March 31, 2005	          Page 21
    •	 The PCIE Legislation Committee has been working on legislative

        proposals to enhance the independence of Inspectors General and

        eliminate barriers to IG functionality. The Legislation Committee

        prepared a survey designed to collect information in support of the

        legislative proposals. The survey included topics such as the

        establishment of an IG council, term of office removal for cause

        provisions, enhancements to IG authority, and personnel flexibilities.

        The IG provided her response and these proposals have been presented

        for consideration to staff members from both the House and Senate.

        The results of the survey will be shared with the IG Community.



    •	 The Department of Energy (DOE) OIG contacted the FEC OIG in an

        effort to examine options for improving their tracking/monitoring

        system for performance measures. The DOE was interested in

        learning 1) how our group tracks/monitors the level of completion

        (status of compliance) of the measures established, and 2) the

        performance measures that our group has established. The OIG

        prepared a response to this inquiry.



    •	 On behalf of the PCIE Audit Committee, the OIG completed a survey

        initiated by the Federal Audit Executive Council (FAEC). The purpose



Semiannual Report to Congress – October 1, 2004 – March 31, 2005	           Page 22
        of the survey was to obtain information about Federal Agencies that

        have non-OIG audit entities within the Agency. Specifically, the

        survey requested information on the policies and procedures in place

        related to the non-OIG audit entities.



    •	 At the beginning of this reporting period the OIG started to keep an

        on-going log of incoming inquiries. Although most of these inquiries

        were through telephone and electronic mail, a minimal amount of

        inquiries were through U.S. mail. Prior to the end of this reporting

        cycle, the OIG began to receive a large quantity of e-mail inquiries

        pertaining to a variety of issues such as alleged abuse of campaign

        rules, voter election fraud, and electronic voting.



        The OIG received a total of 6,440 e-mails this quarter. Of that total

        3,605 e-mails were unreadable due to foreign characters contained in

        the subject line and/or text, 341 were “spam” e-mails, and 239 were

        electronic advertisements.



        The OIG received 977 e-mails relating to election issues - 152 of those

        e-mails were printed and forwarded to the Office of General Council

        (OGC) – 495 were electronically filed until further notice from the

        OGC.



Semiannual Report to Congress – October 1, 2004 – March 31, 2005	          Page 23
        The OIG forwarded 509 e-mails to the Election Assistance Commission

        (EAC). Those e-mails focused on voter & election fraud, problems

        regarding absentee voting, voter registration, etc. The Information

        Division received 115 e-mails forwarded by the OIG – topics included

        campaign funding, disclosure reporting for Senate candidate, gallup

        polls, etc. The OIG forwarded 1 e-mail to the Federal Communication

        Commission. Six e-mails required further OIG attention.



        The OIG also received a total of 206 telephone inquiries – 186 of those

        telephone inquiries were forwarded to the Election Assistance

        Commission.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005          Page 24
                           ECIE AND PCIE ACTIVITY




        The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics,

the Office of Special Counsel, the Federal Bureau of Investigation and the

Office of Management and Budget.



        The Commission’s Inspector General is an active member of the

Executive Council on Integrity and Efficiency (ECIE) and has provided input

to a number of initiatives proposed by the Council. The ECIE serves as a

forum for the exchange of views for the Inspector General Community. The

Council identifies, reviews, and discusses issues that are of interest to the

entire IG Community. The IG attended regular meetings held by the ECIE,

and joint meetings of the President’s Council on Integrity and Efficiency

(PCIE) and the Executive Council on Integrity and Efficiency.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005           Page 25
        For the period October 1, 2004 through March 31, 2005, the Inspector

General (or staff) attended the following training, meetings, programs,

seminars, and/or conferences:



        •	 ECIE - Monthly Meetings

        •	 PCIE - Financial Statement Audit Network (FSAN) Meeting

        •	 PCIE / ECIE – 2005 Association of Directors of Investigation (ADI)
           Conference

        •	 PCIE / ECIE - Federal Audit Executive Committee (FAEC) Meeting

        •	 PCIE / ECIE – Administrative Liaison Meeting

        •	 PCIE / GAO – Financial Statement Audit Roundtable Discussion

        •	 Virginia Society of Public Accountants – Ethics: Your License
           Depends on it

        •	 USDA Graduate School – Contract and Procurement Fraud

        •	 USDA Graduate School – Quick Response Auditing

        •	 USDA Graduate School – Writing Value Added Audit Reports

        •	 USDA Graduate School - JFMIP – Federal Financial Management
           Conference

        •	 Federal Election Commission – Finance Committee Meetings

        •	 Federal Election Commission – Administrative Liaison Meetings

        •	 Federal Election Commission – Zegato Electronic Travel Services
           Training




Semiannual Report to Congress – October 1, 2004 – March 31, 2005	          Page 26
IG ACT                  REPORTING REQUIREMENTS                                           PAGE





Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)         Review of Legislation----------------------------------------------20

Section 5(a)(1)         Significant Problems, Abuses, and
                        Deficiencies------------------------------------------------------None

Section 5(a)(2)         Recommendations with Respect to
                        Significant Problems, Abuses, and
                        Deficiencies------------------------------------------------------None

Section 5(a)(3)         Recommendations Included in Previous
                        Reports on Which Corrective Action Has
                        Not Been Completed-(Table III) -------------------------------30

Section 5(a)(4)         Matters Referred to Prosecutive
                        Authorities------------------------------------------------------None

Section 5(a)(5)         Summary of Instances Where Information
                        was Refused----------------------------------------------------None

Section 5(a)(7)         Summary of Significant Reports--------------------------------10

Section 5(a)(8)         Questioned and Unsupported Costs-(Table I)----------------28

Section 5(a)(9)         Recommendations that Funds be put
                        to Better Use (Table II)------------------------------------------29

Section 5(a)(10)        Summary of Audit Reports issued before
                        the start of the Reporting Period for which
                        no Management Decision has been made-------------------N/A

Section 5(a)(11)        Significant revised Management Decisions-----------------N/A

Section 5(a)(12)        Management Decisions with which the
                        Inspector General is in Disagreement-----------------------None




Semiannual Report to Congress – October 1, 2004 – March 31, 2005                          Page 27
                                            TABLE I


                   INSPECTOR GENERAL ISSUED REPORTS

                        WITH QUESTIONED COSTS



                                                          DOLLAR VALUE (in thousan ds)

                                                         QUESTIONED      UNSUPPORTED
                                           NUMBER           COSTS            COSTS



A. 	 For which no Management                0                       0          [0]
    decision has been made by
    commencement of the reporting
    period


B. 	 Which were issued during               0                       0          [0]
     the reporting period

        Sub-Totals (A&B)                    0                       0	         [0]


C. 	 For which a Management                 0                       0          [0]
    decision was made during
    the reporting period

        (i) 	 Dollar value of disallowed    0                       0          [0]
              costs

        (ii) Dollar value of costs          0                       0          [0]
             not disallowed


D. 	 For which no Management                0                       0          [0]
    decision has been made by the
   end of the reporting period


E. 	 Reports for which no Management        0                       0          [0]
    decision was made within
    six months of issuance




Semiannual Report to Congress – October 1, 2004 – March 31, 2005	                    Page 28
                                          TABLE II


           INSPECTOR GENERAL ISSUED REPORTS WITH

       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE





                                                         NUMBER     DOLLAR VALUE
                                                                     (in thousands )



A.	     For which no Management                             0              0
        decision has been made by
        the commencement of the
        reporting period

B.	     Which were issued during                            0              0
        the reporting period

C.	     For which a Management                              0              0
        decision was made during
        the reporting period

        (i) 	    dollar value of                            0              0
                 recommendations
                 were agreed to by
                 Management

                 based on proposed                          0              0
                 Management action

                 based on proposed                          0              0
                 legislative action

        (ii) 	   dollar value of                            0              0
                 recommendations
                 that were not agreed
                 to by Management

D. 	    For which no Management                             0              0
        decision has been made by
        the end of the reporting period

E. 	    Reports for which no                                0              0
        Management decision
        was made within six months
        of issuance




Semiannual Report to Congress – October 1, 2004 – March 31, 2005	                  Page 29
                                         TABLE III


    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS

         OUTSTANDING FOR MORE THAN SIX MONTHS





                                                                    Recommendations


                                Report          Issue
Report Title                    Number          Date               Number   Closed Open



   No outstanding recommendations of more than six m onths during this period.




Semiannual Report to Congress – October 1, 2004 – March 31, 2005                  Page 30
    CONTACTING THE OFFICE OF INSPECTOR GENERAL



The success of the OIG mission to prevent fraud, waste, and abuse depends on
the cooperation of FEC employees (and the public). There are several ways to
report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day/7 days a week.




        Write or visit us - we are located at:	          Federal Election Commission
                                                         Office of Inspector General
                                                         999 E Street, N.W., Suite 940
                                                         Washington, DC 20463

                                           Mail is opened by OIG staff members only.




                         You can also contact us by e-mail at: oig@fec.gov.

                         Our Website address: http://www.fec.gov/fecig.htm.



Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.



Semiannual Report to Congress – October 1, 2004 – March 31, 2005	                 Page 31
